<html>
<title> - ARE WE PREPARED? MEASURING THE IMPACT OF PREPAREDNESS GRANTS SINCE 9/11</title>
<body><pre>[Senate Hearing 113-217]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-217

ARE WE PREPARED? MEASURING THE IMPACT OF PREPAREDNESS GRANTS SINCE 9/11

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
 MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2013

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                  U.S. GOVERNMENT PRINTING OFFICE


82-572 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Trina D. Shiffman, Chief Clerk
                    Laura W. Kilbride, Hearing Clerk


SUBCOMMITTEE ON EMERGENCY MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND 
                        THE DISTRICT OF COLUMBIA

                      MARK BEGICH, Alaska Chairman
CARL LEVIN, Michigan                 RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
JON TESTER, Montana                  MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota
                     Pat McQuillan, Staff Director
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk



















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Begich...............................................     1
    Senator Chiesa...............................................     3
    Senator Paul.................................................    11

                               WITNESSES
                         Tuesday, June 25, 2013

Hon. Timothy Manning, Deputy Administrator, Protection and 
  National Preparedness, Federal Emergency Management Agency, 
  U.S. Department of Homeland Security...........................     4
Anne L. Richards, Assistant Inspector General, Office of Audits, 
  Office of Inspector General, U.S. Department of Homeland 
  Security.......................................................     6
David C. Maurer, Director, Homeland Security and Justice Team, 
  U.S. Government Accountability Office..........................     7
John W. Madden, Director, Alaska Division of Homeland Security 
  and Emergency Management Association, and Member, National 
  Governors Association..........................................    23
Hon. William Euille, Mayor, City of Alexandria, Virginia, and 
  Member, U.S. Conference of Mayors..............................    25
Josh D. Filler, Founder and President, Filler Security 
  Strategies, Inc.,..............................................    27
Matt A. Mayer, Visiting Fellow, Heritage Foundation..............    29

                     Alphabetical List of Witnesses

Euille, Hon. William:
    Testimony....................................................    25
    Prepared statement...........................................    82
Filler, Josh D.:
    Testimony....................................................    27
    Prepared statement with attachment...........................    88
Madden, John W.:
    Testimony....................................................    23
    Prepared statement with attachment...........................    71
Manning, Hon. Timothy:
    Testimony....................................................     4
    Prepared statement...........................................    39
Maurer, David C.:
    Testimony....................................................     7
    Prepared statement...........................................    56
Mayer, Matt A.:
    Testimony....................................................    29
    Prepared statement...........................................    96
Richards, Anne L.:
    Testimony....................................................     6
    Prepared statement...........................................    48

                                APPENDIX

Additional statements for the Record:
    Richard W. Stanek, President Major County Sheriff's 
      Association (MCSA).........................................   102
    The Jewish Federations of North America......................   110
    National Assocation of Counties (NACO).......................   125

 
                            ARE WE PREPARED?
         MEASURING THE IMPACT OF PREPAREDNESS GRANTS SINCE 9/11

                              ----------                              


                         TUESDAY, JUNE 25, 2013

                               U.S. Senate,        
              Subcommittee on Emergency Management,        
                         Intergovernmental Relations,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:06 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.
    Present: Senators Begich, Paul and Chiesa.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. Thank you very much for being here this 
morning. This meeting will come to order.
    Good morning and welcome to the Subcommittee on Emergency 
Management, Intergovernmental Relations, and the District of 
Columbia (EMDC).
    I want to begin by thanking all our witnesses here today 
for their willingness to participate as we examine the impacts 
of the Federal Emergency Management Agency (FEMA's) grants on 
enhancing preparedness capabilities at the State and local 
level and the role of metrics to measure our progress as a 
Nation.
    Since September 11, 2001, almost $40 billion has been spent 
on equipment, training, and exercising for our emergency 
management and homeland security professionals and our first 
responders in an effort to enhance preparedness, response and 
recover from natural and manmade events. These grants support 
investments being made by cities and communities across the 
country, and the funding is leveraged in a variety of ways to 
encourage a whole-of-community response.
    While our response to disasters has evolved over the years, 
as lessons are learned and processes are streamlined, FEMA 
continues to struggle to quantify improvements and achievements 
that would inform future investments to address critical gaps 
in our capabilities.
    Congress has attempted to encourage the measurement of 
preparedness numerous times in the past. The Post-Katrina 
Emergency Management Reform Act of 2006 directed FEMA to create 
the National Preparedness System and a National Preparedness 
Goal, which could be used to define the target level of 
preparedness and require the development of a National 
Preparedness Report (NPR).
    FEMA has made progress toward addressing these 
requirements, releasing the second National Preparedness Report 
earlier this month.
    Unfortunately, after significant delays, the report falls 
short of truly measuring progress toward achieved stated goals. 
As we will hear from the Government Accountability Office 
(GAO), FEMA has encountered challenges comparing current levels 
of preparedness to clear, objective, scalable and measurable 
baseline and standards.
    FEMA has tried to measure preparedness in a variety of 
ways, and reporting requirements have changed many times over 
the years. There have been many changes recently in the 
reporting and data requirements that the States and localities 
must provide.
    While FEMA's approach will naturally evolve as new 
priorities emerge and methodology develops, stakeholders need 
some sense of consistency in order to really make progress in 
measuring capabilities.
    In order to best leverage grant investments, States and 
locals must be able to prioritize funding they receive for 
their most pressing threats and hazards.
    Local officials are best positioned to understand the 
critical infrastructure that exists within their jurisdictions 
and are fully invested in identifying the best ways to prepare 
for emergency, emerging threats and consequences of disasters 
of all types.
    Our intention is not to increase the number of reports 
local, State and Federal officials submit or make preparedness 
assessments burdensome. We simply want to assure the reports 
that are required truly measure progress in achieving goals 
while leveraging metrics and standards that remain flexible and 
not overly prescriptive. A single one-size-fits-all reporting 
methodology may not be responsive to the unique threats, 
hazards and organizational structures and priorities evident 
across the Nation.
    In my home State of Alaska, we understand the importance of 
scaling generalized requirements and priorities. Our unique 
position as an Arctic State shapes how we address threats and 
hazards. Standards and metrics that are applicable in New York 
City may not translate to Anchorage, Fairbanks or a small 
village in our State. Flexibility is needed to allow States to 
be responsive to their biggest hazards and react effectively 
when new threats emerge.
    Alaska's remote location means we must assess not only the 
hazards we face internally, but we must also consider 
consequences of events happening in other time zones.
    Cascading effects from a disaster of the Port of Seattle or 
the Port of Los Angeles would cutoff shipping lanes that 
facilitate the movement of food to all of Alaska.
    Even though the highways that transport vital resources 
from the Midwest to the West Coast are thousands of miles away, 
a terror attack on a critical bridge could impact the supply 
chain and delay shipments of goods bound for Anchorage, 
Fairbanks and the rest of the State.
    Along the Yukon River in Alaska, spring breakup has 
resulted in devastating flooding in a number of communities, 
including Galena.
    These events test a resolve in affected citizens and can 
highlight investments made over years, utilizing Federal 
Homeland Security Grant dollars and State general funds.
    Since 2003, Galena has received over $190,000 to conduct 
exercises for local residents, purchase critical equipment and 
build interoperable communication capabilities. In addition, 
the State coordinated with the Tanana Chief Conference to 
facilitate a table-top exercise in March of this year, to 
further develop their working relationship on disaster response 
and recovery.
    They say you should not be meeting critical partners for 
the first time on the site of a disaster, and these exercises 
contribute to the swift response and smooth recovery. I believe 
these investments are worth making, and the Federal funds can 
support actions already taking place at the State and local 
level.
    In pursuit of the national preparedness, we are greater 
than the sum of the parts. State and local stakeholders have 
worked diligently to remain accountable to taxpayers, in an 
effort to use decreasing grants funds efficiently and 
effectively in accomplishing major goals.
    As the maxim goes, what gets measured gets done. We must 
assure that we work collaboratively to actively support 
investments that show clear progress. This is a national goal, 
and it must remain a national priority.
    I truly look forward to the testimony today.
    And, before that, I would like to introduce our new member, 
Senator Chiesa.
    Did I say that right?
    Senator Chiesa. Chiesa, yes. Thank you, Mr. Chairman.
    Senator Begich. Well, you are welcome. And, if you have a 
few comments before we start, I would be happy to have you say 
an opening comment.

              OPENING STATEMENT OF SENATOR CHIESA

    Senator Chiesa. Thank you very much.
    Living in a State that has been so devastated over the past 
year, I appreciate everything FEMA is doing to bring our State 
back where it needs to be, and I look forward to our 
conversation on these really important issues today.
    So, thank you for being here. Thank you, Mr. Chairman.
    Senator Begich. Thank you very much and welcome to the 
Committee in total.
    We have the first panel here, and what I will do is 
introduce all three, and we will just start from this side.
    Timothy Manning, Deputy Administrator, Protection and 
National Preparedness, Federal Emergency Management Agency--we 
welcome you here.
    Anne Richards, Assistant Inspector General for Audits, 
Office of Inspector General (OIG), again, U.S. Department of 
Homeland (DHS).
    And, David Maurer, Director of Homeland Security Department 
of Justice.
    Again, thank all three of you for being here.
    And we have a second panel which we will introduce after 
you all are done.
    When the Ranking Member arrives, if he is able to be here, 
we will have him do some opening comments. So I may have him 
interject in between your testimony.
    Let me first start with the Hon. Timothy Manning.

TESTIMONY OF THE HON. TIMOTHY MANNING,\1\ DEPUTY ADMINISTRATOR, 
    PROTECTION AND NATIONAL PREPAREDNESS, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Manning. Good morning. Thank you, Chairman Begich, 
Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Manning appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    Good morning. I am Tim Manning, Deputy Administrator of 
FEMA for Protection and National Preparedness. On behalf of 
Secretary Napolitano and Administrator Craig Fugate, thank you 
for the opportunity to be here this morning.
    As you know, FEMA's preparedness grant programs have 
contributed significantly to the overall security and 
preparedness of the Nation. We are more secure and better 
prepared to prevent, protect against, mitigate, respond to and 
recover from the full range of hazards and threats the Nation 
faces than we have been at any other time in our history.
    Much of this progress has come from the leadership at the 
State and local levels, fueled by FEMA's grant programs. Over 
the past 10 years, Congress, through the Department of Homeland 
Security, has provided State, territorial, local and tribal 
governments with more than $36 billion. We have built and 
enhanced capabilities by acquiring needed equipment, funding 
training opportunities, developing preparedness and response 
plans, exercising and building relationships across city, 
county and State lines.
    And, although Federal funds represent just a fraction of 
what has been spent on homeland security across the Nation 
overall, these funds have changed the face of preparedness in 
the United States. Response and recovery efforts from last 
year's Hurricane Sandy, the recent tragedy in Boston and the 
deadly tornadoes in Oklahoma bear witness to this.
    In March 2011, President Obama signed Presidential 
Directive 8 on National Preparedness, directing the 
implementation and the establishment of a National Preparedness 
Goal and a National Preparedness System to build, sustain and 
deliver the core capabilities needed to achieve that goal. This 
system allows grantees to use components to identify the 
threats and hazards with which we are faced; build, sustain and 
plan for the use of capabilities needed to face them; and 
constantly review our effectiveness.
    FEMA is tracking grantees' progress in implementing the 
components of the National Preparedness System and working 
toward closing the gaps. In 2012, FEMA released its 
Comprehensive Preparedness Guide 201: Threat and Hazard 
Identification and Risk Assessment (THIRA). The results 
highlight the gaps in capabilities which gives FEMA a basis to 
measure grantees' progress in closing those gaps against 
specific core capabilities over time.
    On December 31, 2012, States and territories submitted 
their first THIRAs and the State preparedness reports to FEMA. 
The summary of those results are published in the annual 
National Preparedness Report.
    The first NPR, released last year, included specific 
accomplishments in the context of the core capabilities 
identified in the goal. While this inaugural 2012 NPR 
highlighted preparedness accomplishments in the decade 
following September 11, 2001, the 2013 National Preparedness 
Report recently transmitted to Congress focuses primarily on 
accomplishments either achieved or reported during 2012.
    The strengths and areas for improvement in the NPR are used 
to inform planning efforts, focus priorities of Federal grants 
and enable informed collaboration amongst stakeholders, working 
together to improve the Nation's preparedness.
    Our investments have paid off before and after recent 
disasters and terrorist attacks. New York City's and New 
Jersey's success in responding to Hurricane Sandy stems in part 
from grant-fueled investments in personnel and supplies as well 
as community outreach and warning systems.
    New York City used the Urban Area Security Initiative 
(UASI) funds to develop and train the Fire Department New 
York's (FDNY's) Incident Management Team, which successfully 
managed operations in Queens, Brooklyn and Staten Island. It 
supported the City's Office of Management in evacuation and 
sheltering plans to move more than 3 million residents and 
sheltered up to 605,000 people.
    New Jersey used Public Safety Interoperable Communications 
Grants to fund the construction of a statewide 700 MHZ trunked 
radio system, which is one of the biggest public safety 
communications success stories in Hurricane Sandy.
    Federal grant programs also helped bolster State and local 
preparedness and response for the April 15 Boston Marathon 
bombing. The Massachusetts State Police used a Forward Looking 
Infrared (FLIR)--imaging unit purchased with DHS grants to 
search, locate and apprehend the surviving bomb suspect. Boston 
used funds to train the Special Weapons and Tactics (SWAT) 
teams to better integrate with bomb technicians into tactical 
operations--a crucial capability that was demonstrated to all 
in the aftermath of that bombing.
    And the Nation's ability to conduct collapse search and 
rescue, as we have seen demonstrated too many times in recent 
tornadoes, is significantly more advanced than it was 10 years 
ago. Ninety-seven percent of the U.S. population now lives 
within a 4-hour drive of a structural collapse team, up from 60 
percent a decade ago.
    In conclusion, we have demonstrated the efficacy of our 
grant programs through thoughtful analysis. The National 
Preparedness Goal provides us with a clearly defined target to 
work toward. And we have greatly improved our ability to assess 
the needs and track spending toward meeting those goals.
    Mr. Chairman, Members of the Committee, thank you for the 
opportunity to discuss these important issues today. I am happy 
to be here and very happy to respond to any questions you may 
have.
    Senator Begich. Thank you very much. Anne Richards.

TESTIMONY OF ANNE L. RICHARDS,\1\ ASSISTANT INSPECTOR GENERAL, 
OFFICE OF AUDITS, OFFICE OF INSPECTOR GENERAL, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Ms. Richards. Good morning, Chairman Begich, Members of the 
Committee. My testimony today will summarize the results of our 
audits of the Homeland Security Grant Program. I will present 
my testimony in two sections by first discussing the 
deficiencies or challenges we have identified and then 
highlighting some of the best practices being used by various 
States and urban areas.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Richards appears in the Appendix 
on page 48.
---------------------------------------------------------------------------
    Homeland Security grants are awarded to States, territories 
and local and tribal governments to enhance their ability to 
prepare for, prevent, protect, respond to and recover from 
terrorist attacks, major disasters and other emergencies. The 
Homeland Security Grant Program includes the State Homeland 
Security Program and the Urban Area Security Initiative that 
fund a range of preparedness activities.
    Since 2007, we have audited States and urban areas to 
determine whether they have implemented their Homeland Security 
grants efficiently and effectively, achieved program goals and 
spent funds according to grant requirements. As of May 2013, we 
have completed audits of 36 States and 1 territory, some of 
which included urban areas. We have 17 ongoing audits.
    Through our audits, we determine that States generally 
complied with applicable laws and regulation in distributing 
and spending their grants. However, they face challenges in 
homeland security strategies, obligation of grant funds, 
reimbursement to subgrantees for expenditures, monitoring of 
subgrantees' performance and financial management, procurement 
and property management.
    Of the 22 States we audited in fiscal year 2012 and fiscal 
year 2013 to date, 17 had recommendations related to strategic 
planning and measurement. Although State homeland security 
strategies are to include specific, measurable, achievable, 
results-oriented and time-limited goals and objectives, many 
strategies, goals and objectives were too general to 
effectively measure the States' performance and progress toward 
improving capabilities. In addition, some States had outdated 
strategies that did not reflect the most current priorities, 
risks, needs and capabilities.
    States did not always obligate Homeland Security grants to 
subgrantees in a timely manner, which could have led to 
increased administrative costs and may have hindered the 
subgrantees' ability to complete projects and deliver needed 
equipment and training. For example, 6 of the States we have 
audited this fiscal year actually obligated the funds between 
138 days and 842 days after the funds were available.
    In our fiscal year 2013 audits, we have determined that 7 
States had limited oversight of subgrantees, did not ensure 
that subgrantees consistently tracked their accomplishments or 
did not ensure their compliance with Federal laws and 
regulations. Without adequate monitoring, States may have 
limited their ability to meet their goals, assess capabilities 
and gaps, take corrective actions and use funds to enhance 
capabilities.
    Some subgrantees did not fully comply with Federal and 
State procurement regulations by not obtaining an adequate 
number of bids, not properly justifying sole-source 
procurements or not conducting required cost analysis for 
noncompetitive procurements. As a result, subgrantees may not 
have made fully informed decisions on contracted awards or 
selected the best vendors.
    We also identified weaknesses in property management, 
including the subgrantees that did not regularly inventory 
grant-funded equipment, maintain adequate property records and 
inventory documentation, or properly mark grant-funded 
equipment. Without good property management, States and 
subgrantees may not be able to safeguard against equipment 
loss, damage and theft.
    Through our audits, we also identified several States and 
urban areas using innovative and promising practices. For 
example, the State of Texas created a registry for people with 
disabilities, medical conditions or other problems who may need 
assistance in case of a mandatory evacuation.
    The San Diego urban area created a technology clearinghouse 
to evaluate new technologies and independently assess equipment 
and systems being considered by first responders.
    Kentucky hosts grant workshops at various locations 
throughout the State to assist agencies interested in receiving 
grant funding.
    In closing, I would like to note FEMA's efforts to improve 
Homeland Security grants management and its plans to continue 
these efforts by updating program guidance and better 
monitoring grantees. FEMA has generally agreed to our 
recommended actions and is taking steps to implement those 
recommendations.
    For our part, by August 2014, we plan to complete audits of 
all States and territories receiving grants. Our overall 
objective in these audits remains essentially unchanged--to 
continue recommending actions that will make grant management 
more efficient and effective while strengthening the Nation's 
ability to prepare for and respond to natural and manmade 
disasters.
    Mr. Chairman, this concludes my prepared remarks. I welcome 
any questions that you or the Members of the Subcommittee may 
have.
    Senator Begich. Thank you very much. David Maurer.

 TESTIMONY OF DAVID C. MAURER,\1\ DIRECTOR, HOMELAND SECURITY 
    AND JUSTICE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Maurer. Good morning, Chairman Begich, Ranking Member 
Paul and other Members and staff. I am pleased to be here today 
to discuss FEMA's ongoing efforts to assess our national 
preparedness for natural and manmade disasters.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Maurer appears in the Appendix on 
page 56.
---------------------------------------------------------------------------
    Over the past decade, Congress has appropriated $41 billion 
for a variety of grant programs designed to help the Nation be 
better prepared for terrorist attacks and disasters. During 
this time, GAO has been there, providing objective, nonpartisan 
oversight, and what we have found has often not been 
encouraging.
    DHS and, more specifically, FEMA have struggled to 
effectively manage and measure grant programs. It is difficult 
to say what we have really gotten for our investment because 
FEMA has been unable to measure how grant funding has enhanced 
our national ability to be prepared.
    Specifically, our work has found that FEMA lacks measures 
to assess how well its individual grant programs are working 
and whether, collectively, these programs have helped enhance 
national preparedness. For example, we found that while FEMA 
has performance measures for its largest grant programs, they 
typically provide information on whether tasks or activities 
have been completed. They do not generally provide an 
assessment of the effectiveness of individual activities or the 
overall grant program.
    To put it another way, FEMA has developed output measures 
for its individual programs but still generally lacks the 
ability to assess their outcomes. And when you cannot do that 
for individual programs, how do you assess the impact of all of 
FEMA's grant programs?
    That leads to an important national-level question: How 
much better prepared do all these programs make us?
    To answer that, it comes down to knowing how prepared we 
are and how prepared we should be.
    Over the past several years, we have found that FEMA has 
been unable to assess these vital questions. FEMA, therefore, 
lacks a clear view of where we have preparedness gaps. That 
makes it very difficult to direct grant money to address those 
gaps.
    Now I need to be clear. It is quite difficult to measure 
preparedness. FEMA has been working on this for years, and it 
is very important to give them credit for what they have been 
able to accomplish over the course of the last 2 years.
    FEMA now has the basic elements in place for assessing 
national preparedness capabilities. It has articulated a 
national goal, developed a plan for achieving that goal, issued 
two national reports on progress and enhanced the consideration 
of risk and funding decisions.
    For example, FEMA recently issued its second National 
Preparedness Report. The report summarizes, at a nationwide 
level, self-reported State and local progress in identifying 
and closing preparedness gaps. These steps are vital, and they 
make progress toward addressing GAO recommendations.
    However, FEMA continues to face important challenges. Most 
significantly, FEMA still lacks clear, objective and 
quantifiable measures of how prepared the Nation is and how 
prepared we should be. That means FEMA is not yet in a position 
to target grant funding toward the most critical gaps.
    FEMA's approach relies on States' individual, self-reported 
judgments on their capability requirements and levels of 
preparedness. In other words, funding decisions continue to be 
informed by what each State says it needs rather than applying 
a common, objective assessment across all of the States. 
Without such standards, it becomes very difficult to identify 
differences and compare capability levels between States.
    In conclusion, billions of taxpayer dollars are being 
invested in making the Nation better prepared for terrorist 
attack and natural disaster. Measuring how much better prepared 
this makes us is a very difficult task, but FEMA needs to do 
it. The law requires it. The President requires it. And stacks 
of GAO reports have recommended it.
    FEMA efforts on this front over the past couple of years 
are encouraging, but the bottom line remains--after years of 
effort, FEMA cannot clearly and objectively articulate what $41 
billion in grant funding has accomplished, what still needs to 
be done and the magnitude of the remaining gaps. This is vital 
for ensuring that in the future increasingly scarce grant 
funding is focused on areas of greatest need.
    Chairman Begich, thank you for the opportunity to testify 
this morning. I look forward to your questions.
    Senator Begich. Thank you very much.
    We will start with a 5-minute round, and let me first ask.
    David, I want to followup just on your last comments here.
    I know FEMA has recommended some consolidation of some of 
their programs. Let me first ask you; from your perspective, do 
you think that will have a positive impact in trying to 
streamline their process and also to analyze their outcome 
better?
    Or, give me a thought on their recommendation.
    Mr. Maurer. Sure. Absolutely. From GAO's perspective, we 
have not seen enough detail yet in FEMA's proposal for 
consolidating the different grant programs to make an 
independent assessment of whether it will help or whether it 
will not help.
    At the highest level, you could envision how it could make 
things easier for grant recipients to only have to provide 
information and respond to queries on one program. However, 
there is the potential for other downside risks as well.
    So the devil is in the details, and the details are not yet 
available.
    Senator Begich. Sure. As a former mayor, we operated an 
emergency management system and worked with FEMA and worked 
with a lot of different groups.
    How do you envision, or how does GAO envision, to measure 
the success of preparedness?
    In other words, we know investments. I will use Galena. We 
had an exercise with our State in March, and I am glad that 
happened. I mean, we had a lot of significant property damage 
but not life lost, so it helped me understand.
    How do you see that?
    Or, what is the tool to measure?
    I mean, I agree with you. There has to be a better 
understanding of how we measure these grants and success.
    Mr. Maurer. Absolutely. I think at the broadest level the 
conceptual framework that FEMA has laid out would enable us to 
get there eventually. I think the challenge that they are 
facing right now is fully implementing it.
    And probably the biggest challenge is the one that you have 
mentioned--that at the State and at the local level there are 
very specific requirements; there are very specific threats. 
Trying to roll all of that up from local to State to the 
national level and use that as a way to drive grant funding 
decisions is a difficult thing to do. But, in order to get 
there, you have to have clear, objective, quantifiable 
measures.
    And, like I said, I think the framework that FEMA has is a 
reasonable approach toward doing that. It is just not fully 
implemented yet from our perspective.
    Senator Begich. Thank you very much.
    Mr. Manning, let me ask a couple questions.
    I know FEMA has had, over the last several years, different 
measurement levels of how you would measure success, and I know 
that has changed quite a bit.
    Help me create some assurance here that you are in the 
process now or have some ability to ensure; here is where you 
want to measure; here is how you want to measure; and 2 years 
from now, or a year from now, it will not change again--because 
I will tell you again as a person who managed an operation and 
that had to always fill out the papers, when the measurement 
changed every year or every 2 years, it was just more paper we 
churned in order to satisfy the needs of FEMA.
    What assurances can we have?
    And then also I would like for you to comment on the 
consolidation of FEMA programs--what does that mean, and when 
would that happen in your eyes, and what will it take to make 
it happen?
    Mr. Manning. Thank you, Mr. Chairman.
    I guess I could start with saying that Administrator Fugate 
and I--and Secretary Napolitano--we were all, before we joined 
the Department of Homeland Security, State officials 
responsible for implementing these programs as well and were 
subject to the very frequent changing of requirements. So we 
are very cognizant of the detriments to the effectiveness of 
building a homeland security program in a State or local 
government by those constantly changing requirements.
    The President's Directive No. 8 (PPD8)--on national 
preparedness consolidated a number of different and divergent 
directives from over the past decade and brought them all in 
line with the Post-Katrina Emergency Management Reform Act and 
directed the executive branch to build this system to be 
implemented.
    One of the reasons, I believe, that we had a frequent swing 
in the requirements over the past was new directives and new 
requirements coming up and the recognition on the part of the 
department that a particular scheme was not maybe as effective 
as it needed to be. And, in order to address concerns raised by 
both the IG and the GAO and Congress and our stakeholders 
across the country, the department would come up with new 
ideas.
    You heard many times mentioned--and you yourself mentioned 
in your opening comments--about the concerns with a one-size-
fits-all approach----
    Senator Begich. Right.
    Mr. Manning [continuing]. And the ability to assess the 
effectiveness of the programs from places as divergent as New 
York City to Alaska to Oklahoma City.
    So what we have tried to achieve in this National 
Preparedness System, the THIRA and the goal that I mentioned is 
the idea that working jointly between cities and towns and 
counties around the country, and their States and FEMA and 
through its regions in the department nationally, we assess and 
understand the threats and hazards unique to a particular 
community and the capabilities that community needs. So it is 
no longer entirely just self-directed and self-assessed but an 
actual objective analysis of those capability requirements.
    And then prioritizing the grants and the national systems 
to achieve those goals gives us the ability at FEMA, but more 
importantly, nationally--to understand whether we have been 
effective in closing those gaps.
    And, when I say capability, I do not simply mean material. 
I do not simply mean a truck or a bomb robot. I am talking 
about people with the training to use particular equipment in a 
timeframe to do a job, like we saw in Moore, Oklahoma, when the 
technical rescue teams that were built, using the National 
Incident Management System (NIMS) typing, using national 
doctrine in a way that can be shared nationally, were able to 
respond quickly to a disaster--those teams did not exist 10 
years ago--and save many lives.
    And, Mr. Chairman, our proposal on the National 
Preparedness Grant Program in the President's budget includes a 
consolidated proposal, or a proposal to consolidate all the 
various grant programs.
    The idea is exactly as you heard described--that if we can 
more effectively synthesize the activities within an area, 
within a State, recognizing the very important needs of the 
high-risk urban areas, ports and transit systems that we have 
worked with independently and separately over the years, if we 
can pull those together and have coordinated efforts toward 
filling the gaps, then there is less likelihood for duplication 
and waste of resources.
    Senator Begich. My time has expired. I am going to turn to 
Senator Paul here, but let me ask you a quick question on that.
    And that is, is it in your budget? Do you need legislative 
action to make that happen?
    Mr. Manning. Mr. Chairman, yes, the the grant proposal, as 
envisioned, works as an evolution toward the grant systems that 
were established in the Post-Katrina Act. We have been, and we 
are nearly at completion on, working with our partners through 
the executive branch on the legislative proposal we anticipate 
delivering to the Committee soon that would outline what we 
propose as changes to the authorization.
    Senator Begich. OK. Very good.
    Let me turn to the Ranking Member, Senator Paul, and then, 
Senator Chiesa, I will turn to you right after that.
    Senator Paul, I apologize. We started and I knew you were 
on your way, and I just wanted to keep the meeting going. I 
apologize that you were not here.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. No, that is great. That is a first in Senate 
history to be on time.
    I want to thank the panel members for coming today.
    I was wondering, Mr. Manning; are FEMA preparedness grants 
being used to purchase drones?
    Mr. Manning. Senator, no drones. There have been some 
grantees that have purchased remote-controlled low-level 
aircraft--basically, RV, like what you would think of as hobby 
aircraft--that have cameras for monitoring.
    Senator Paul. Drones can be of different expenses. It 
sounds like a drone to me, just a cheaper one.
    And do you have a policy then for surveillance? If you are 
giving out money that is being used to be purchasing 
surveillance, do you have a policy in place for how the money 
is spent and how the surveillance is done?
    Mr. Manning. The department does have policies in place 
with our grantees and with the various fusion centers on 
protection of civil rights and civil liberties through our 
Office of Civil Rights and Civil Liberties (CRCL) in the 
Intelligence Analysis Directorate.
    Senator Paul. So what is the policy then for using drone 
surveillance?
    Mr. Manning. Senator, I would have to defer to my 
colleagues across the department for specifics on those 
answers, but I know that they work to ensure that they are 
compliant with all the Department of Justice (DOJ) regulations.
    Senator Paul. Does anybody on the panel know anything about 
the drone surveillance program or any of the money being used 
for drones?
    David, did you have a comment?
    Mr. Maurer. We have not done any work specifically looking 
at use of FEMA grants for purchasing of drones. We have done 
broader work on drones, but not specific to FEMA grants.
    Senator Paul. Right. So the problem is that your fusion 
centers have not always been the best at defending civil 
liberties.
    There have been instances where the fusion centers have 
targeted people for their political beliefs. We are in the 
midst of a huge crisis in the country with the Internal Revenue 
Service (IRS) apparently being used for political purposes, but 
a few years back the Missouri fusion center was targeting 
people for their political beliefs. Third-party candidates, 
pro-life people and people with different bumper stickers on 
their car were said to be targeted by the fusion centers.
    There is a big concern that allowing your money--our 
money--to be used to purchase drones without any rules in place 
or without an awareness of what the rules are is disconcerting.
    There are some who believe that once you get outside your 
house you have no privacy. I tend to disagree, and I think 
these are things we are going to have to revisit.
    But we now have the Federal Bureau of Investigation (FBI) 
director saying that drones are being used. He was not aware or 
forthcoming with any specific policy on privacy.
    So these are not something of passing concern.
    I am also concerned about where these grants are going. 
Apparently, some grants are being used to pay office rent. Some 
grants are given to a fusion center that had zero percent 
progress toward its goals.
    David Maurer, would you have any comment on exactly how we 
would go about trying to have better oversight?
    Mr. Maurer. Absolutely. Last year, we issued a report 
looking at that aspect of FEMA grants programs. We looked at 
the four largest programs and identified the amount of 
visibility that FEMA had over the specific uses of the funds, 
and we found that for some of the largest programs FEMA may not 
know specifically how the funds are being used at the time they 
make decisions to provide the money. That creates a problem.
    It also, in our mind, raises the potential risk of 
unnecessary duplication. In other words, grantees could 
potentially receive funds from more than one program for the 
same or similar activities without the internal workings of 
FEMA being aware that that was happening.
    Now we looked into that. We looked at a thousand different 
grant awards. We did not find any examples of specific 
duplication, but there were a couple hundred cases where if you 
just looked at the data they had in their FEMA systems--it 
looked like on paper they were being funded for the same things 
from different programs.
    Senator Paul. Senator Begich, I think this is a good 
example of really where the bill that you and I have talked 
about--trying to pay people to save money, give people within 
the bureaucracy of government more pay to save money--would be 
a good example because, I mean, one, it is just so enormous and 
nobody has the proper incentives.
    If it were my money, I would be watching it. But since it 
is not my money, I do not really care. That seems to be the 
attitude of most people in government.
    We had the trailers that sat in Arkansas for years and 
years. We had the ice that was stored by the hundreds of 
thousands of pounds for Hurricane Katrina that never got there. 
We had the inmates in Baton Rouge who were receiving displaced 
money from FEMA. We had people staying in resorts.
    We had all kinds of things, but it is not really because 
there is one particularly bad person or one particularly bad 
policy. It is really because there is no incentive for anybody 
to protect the money because it is just not theirs.
    And I think the enormity of how much money will always lead 
to abuse.
    I think the distance from the problem, being in 
Washington--really, most of this stuff ought to be locally 
collected and locally handled. It is really why when certain 
States want $62 billion, they want it all at once. They cannot 
stand to get it a little bit at a time so there could be more 
surveillance or more oversight of whether the money is being 
spent properly. It is really why things ought to be done 
differently.
    And instead of giving $62 billion after Hurricane Sandy, in 
1 lump sum, I feel certain that we will be back here in 5 years 
talking about how that money was abused as well. Thanks.
    Senator Begich. Thank you very much.
    Let me go to Senator Chiesa, but let me also--Mr. Manning, 
if I could ask that you could ask the department to submit to 
the Committee whatever written policies or documentations on 
utilization of drones, or whatever the right term is, for 
protection of civil liberties and how that is done. If you 
could have that--whoever the right person is there to submit 
that--I think we would all be very interested in what written 
policies there are on that.
    Let me turn to Senator, again, Chiesa. Thank you very much.
    Welcome again, to the opportunity to be here at the 
Committee. Thank you.
    Senator Chiesa. Thank you, Mr. Chairman.
    And thank you for your testimony this morning.
    I understand that we want to be as careful as we can in 
closing the preparedness gaps, and so we are creating national 
standards to be sure that there is some way to measure what we 
are doing.
    And I also appreciate, as the former attorney general of my 
State, that it is not the easiest thing to measure because 
people want to feel safe all the time. And I think because of 
the tremendous work that gets done by law enforcement and our 
first responders, people do feel safe.
    What I would like to ask you, Mr. Maurer, is understanding 
the need for some type of objective national criteria, is there 
a recognition that--and we have three States here. We have 
Alaska, Kentucky and New Jersey--very different States, very 
different sorts of vulnerabilities in each of those States. How 
does that get calculated into the ability to create a national 
standard?
    How do you recognize each State's individuality as part of 
the balance in creating those national standards?
    Mr. Maurer. Well, I think as a general proposition the 
approach that FEMA is taking makes some level of sense.
    In other words, you start at the local level, you buildup 
to the State level, go to the regional level, and then build to 
the national level so that you are able to take advantage of 
the local-based knowledge and information.
    I mean, obviously, in New Jersey, the local officials in 
New Jersey are much better informed about the risks and the 
capabilities in New Jersey than folks here in Washington, DC.
    The difficult part is trying to roll it up in a way that 
allows comparisons and information, and fair comparisons, 
across States to help inform some of this decisionmaking.
    And I think having the core set of capabilities that FEMA 
has established at least is a start toward a framework. In 
other words, having 31 core capabilities that at a national 
level we want to see progress in achieving helps develop a 
common framework that everyone can work within.
    On the FEMA side, it is going to be increasingly important 
for the folks at FEMA regions to be watching this process very 
closely and provide effective oversight of the information that 
is coming up from the States and locals, to sort of take a look 
at it and make sure that it makes sense and it can be pulled 
together in a way that is consistent and comparable across 
States.
    Senator Chiesa. And I guess that dialogue continues with 
the States on an ongoing basis to make sure, as you said, that 
the information is coming from and within any State, even a 
State that is geographically relatively small, like New Jersey. 
Every community there has a different vulnerability and a 
different core set of issues that they need to be managing to 
keep their people and their community safe.
    Mr. Manning, could you tell me--we see that States--and I 
recall this in dealing with the grants that came into New 
Jersey, that some of these grants are not being obligated as 
quickly as they should be and there are timeframes. And your 
audits, that Ms. Richards talked about, see these things 
happening on a delayed basis.
    What steps are we taking--because States want the money, 
right? They want to keep their citizens safe. They want to use 
the money as effectively as they can. No one is trying to lose 
the ability to use this money.
    So what steps can we take to (a) better educate the States 
and (b) create a sensible protocol that allows the money to be 
obligated in a way that makes sense and is within the 
timeframes that are created by the source of the money?
    Mr. Manning. Senator, thank you.
    You, of course, hit the issue right on the head. There is a 
number of different complexities into the program that have led 
to some of that.
    There has been a requirement at the beginning of the grant 
program that it be obligated in a very short period of time, 
and that has always been defined. It could be defined as 
identified for a particular subgrantee against maybe not 
specific projects but allocations against the general areas, 
against the straight strategies.
    Those all--that does happen.
    The time lags tend to then build on a number of different 
factors. Some is compliance with NEPA; the environmental review 
process can take a deal of time, especially in port and transit 
programs where there is significant capital improvement 
happening. There is a coordination of the 80 percent pass-
through of the grants to the local governments. There is a 
number of administrative procedures that all kind of compound.
    So I think the combination of a refocusing into using the 
National Preparedness System and the idea of using the grants 
to achieve specific capabilities that can be shared nationally, 
to build both local and State capabilities but our national 
disaster and terrorism preparedness, will help facilitate that 
because the projects will be identified ahead of time.
    An element to that program is that once you identify your 
threats and hazards you have to achieve them using specific, 
typed resources--what we call our National Incident Management 
System Typing--so that it is, as I mentioned before, people and 
equipment and training to do a task. Those are identified.
    So it is no longer a nebulous idea of wanting to buildup 
your rescue capability. You want to build to a Type III search 
and rescue team, which is a more easy thing to achieve 
administratively.
    And further, if I may mention, to another--there was an 
issue of draw-downs for many years, where the grant programs 
are multi-year appropriations. They have multiple years against 
that program, and this system has led to grantees having delays 
in the implementation of the expenditure of those funds.
    And we have worked very hard--all the grantees working in 
partnership with us--in changing some of our rules, changing 
some of the implementation rules, and have achieved some great 
progress. We had roughly $8 billion in unspent money as of last 
February. As of this month, it is down to $4 billion, and that 
burn rate is on track.
    So I think we have made great progress in what you have 
heard this morning.
    Senator Chiesa. Mr. Chairman, I know I am out of time.
    I just ask that we continue to work with the States as 
carefully as we can because, as I said, they want to use this 
money. They are desperate to make sure that they are taking all 
the steps that they need to take. And we just need to create a 
conversation that makes sense so that people can do the things 
they need to do to get the resources where they should be.
    Thank you, Mr. Chairman.
    Senator Begich. Thank you very much.
    We will do another quick round, and then we will move to 
the next panel.
    I wanted to followup on some of the questions I know 
Senator Paul had. I guess, Mr. Manning, you could answer this, 
and then anyone else could add to it.
    I feel, Ms. Richard, you have not said anything. I do not 
want you to not have anything to say, but you are probably 
thinking please get done with this testimony so I can sit down. 
[Laughter.]
    But I understand your feeling there.
    We have these minimum grant levels that happen. I forget 
what Alaska is. I think it is 3.5 or somewhere right in that 
range, and there are several that are in that kind of level.
    But they are really spend plans. I mean you allocate the 
money, and then the States say here is what we are going to go 
spend it on versus here is what we need to do to fill our gaps; 
can we get this money? It is kind of a different twist.
    Do you see an opportunity or some way to improve that?
    And I guess because I look at this, and I am listening to 
all the testimony, and there is no--I do not want to offend 
anyone here, but I am listening carefully, and it sounds like a 
lot of mill-churning for what really people want is to have 
capability to respond to manmade or natural disasters.
    But as we and maybe Congress has done this. We have created 
so many layers that are required now that it is not as easy for 
the agencies to operate. I do not want to say that we are not 
to blame for some of this.
    But I am listening carefully, and I just am visualizing my 
days back as mayor and the mill that we had to create in order 
to satisfy the paper checks so all the boxes are checked.
    I could tell you that from a mayor's perspective we want to 
make the cities safe and able to respond, but we are not going 
to wait for a box to be checked to do that. We are going to go 
do it.
    So I am trying to understand. Is there a better way to 
approach this that maybe FEMA, where it is today, is evolving 
into something much different because we have such different 
local response?
    I mean local communities are always and will always be--I 
say local, and I look at my friend, John, there.
    Locals or States, depending on how the situation is laid 
out, always are going to be the first responders, period.
    I do not care what FEMA does. I do not care how much they 
plan, how much money they have. They cannot respond as well as 
a local responder can and should because they understand how 
the nuances of that community work.
    So are there any thoughts on that?
    I do not know if there was a question there that I gave. 
[Laughter.]
    Mr. Manning. I heard a question.
    Senator Begich. OK. Thank God because I am not sure I heard 
one, but go ahead.
    Mr. Manning. Well, you raise important points, Mr. 
Chairman.
    Our approach--the grant programs have always been about 
building a national capability to respond to what may strike 
the Nation and doing that and supporting State and local 
governments because they are the first responders.
    Frankly, often, the public is the real, true first 
responder. The official government agencies--come in, and the 
Federal Government is really one of backfill. We support the 
Governors and the mayors in their tasks.
    So the grant programs have always been about building 
capability, building capacity to protect against acts of 
terror, and build our ability to respond and protect for 
anything else.
    We take that approach with the recognition that risk is 
everywhere. We do--the grants are focused on the highest risk 
community, highest risk States and urban areas, and it 
includes----
    Senator Begich. Except, Mr. Manning, I would say that 
because you have the minimum amounts for each State, it does 
not really differentiate. I mean Louisiana and Alaska get the 
same amount of money.
    Mr. Manning. That is correct.
    Senator Begich. I am sure if Senator Landrieu was here she 
would want to add a zero to her number, but I am just saying 
that the population centers are different. We are more broad-
range.
    So how does that work as a risk-analyzed approach?
    Mr. Manning. The distribution of grant funds follows a risk 
formula established in law in the Post-Katrina Act. It is a 
combination of State minimum amounts basically on population 
and then in addition based on a risk formula that is an 
analysis of the threat vulnerability and consequences, largely 
of an act of terror, on large urban areas around the country--
an analysis of the top 100 and this year, in the appropriation, 
limited to an award of the top 25 riskiest places and the 
cities. So it is a combination of both.
    There is a minimum for the communities that do not have as 
high a risk and then are not awarded additional funds. For 
every State, there is a floor minimum, essentially, with the 
understanding that risk is everywhere and that there are 
requirements everywhere.
    Oklahoma is a very good example, and there are disasters in 
Alaska and Kentucky and many other minimum States.
    I come from New Mexico. It was a minimum State as well.
    Where responses are performed using capabilities developed 
under the grant but, more importantly, that grants fill a 
national purpose--we are building national preparedness, and 
the national--the ability of the United States to respond to a 
national crisis is an aggregate of the capabilities that exist 
in local governments.
    In Hurricane Katrina, there were 80,000 State and local 
responders that traveled from around the country. Hurricane 
Sandy was similar. When we have national-level crises, there is 
mutual aid from every small town in America, and that is a 
capability that is built for the Nation with a national-level 
grant program.
    Senator Begich. Very good.
    Ms. Richards, again, I did not want to leave you not having 
an opportunity to say something. I know there have been a lot 
of questions that have been laid on the table. And I will turn 
to Senator Paul here in just 2 seconds. But any comment on the 
general issues in regards to everything from the consolidation 
to the things we can be doing better to ensure that we are 
fairly managing these from a risk perspective?
    Is there data that we are not asking for?
    Give me your thoughts there.
    Ms. Richards. Thank you, sir. I do have a few comments.
    Two years ago, we published a report where we looked at the 
efficacy of a grant management program, and we had a number of 
recommendations that identified legislative barriers to the 
efficiency of the program, where the simple facts of different 
grant programs have different deadlines and the money is 
available at different times makes it more difficult for the 
applicants to----
    Senator Begich. That is legislatively?
    Ms. Richards. Yes.
    Senator Begich. And I am assuming--and I am just guessing 
here as a new member--Congress has done nothing with those?
    Ms. Richards. Well, we make recommendations to FEMA. FEMA 
is making applications----
    Senator Begich. The answer is yes. I hear you.
    Ms. Richards. Yes. I would say yes, sir. Yes, sir.
    Senator Begich. I am just guessing because we have all 
these reports we love to get, and then we go onto the next 
crisis.
    So, OK. Good. That is something for us to do.
    Ms. Richards. And also, it goes back to Senator Chiesa's 
question as well, on the difficulty to get the grant funds 
obligated in a timely manner. A lot of that is administrative 
because to complete the obligation there has to be a signature 
from the recipient at the subgrantee level.
    Because those recipients are oftentimes local or small 
organizations, they do not meet every day like a State 
administrative agency does. And so, because they cannot predict 
when the money is going to be available and when the paperwork 
is going to come down, they may not have a meeting scheduled. 
So the funding just sits until they are available to sign for 
it.
    So some greater regularity and some greater consolidation 
of when these timeframes would be helpful to both FEMA and the 
recipients.
    Senator Begich. Very good. Senator Paul.
    Senator Paul. I started, and we mentioned some of the 
abuses from past FEMA expenses, but I thought it would be good 
to go through a few more.
    Mr. Manning, have you read Senator Coburn's report?
    Mr. Manning. Yes, I have.
    Senator Paul. OK. Well, here is one. This is Montcalm 
County. This is not from his report.
    It says, the United States is fighting terrorism one snow 
cone at a time. The West Michigan Shoreline Regional 
Development Commission, with a grant from FEMA, bought 13 snow 
cone machines valued at $11,700.
    That would embarrass me if I were in charge of any of this 
money, and I would want to respond and do something about that.
    I think most people saw this when this was in the news--the 
Halo Counter-Terrorism Summit in 2012 in San Diego with the 
zombie apocalypse demonstration. Forty actors dressed as 
zombies did some kind of simulated terrorism thing. The cost, I 
think, was offset by grant money from FEMA.
    That, I think, would embarrass me also if I were in charge 
of any of this money, but I would want to know if something had 
been done about it.
    We are buying all these armored vehicles. And there 
probably is a need for an armored vehicle maybe in New York 
City or Washington, DC. or somewhere, but in Keene, New 
Hampshire, there have been two murders in the last 15 years. We 
bought a $285,000 armored vehicle.
    I am sure that even the people in Keene thought that was 
kind of ridiculous.
    Montgomery County, Texas got a $300,000 ShadowHawk drone 
with UASI dollars.
    I would be a little concerned about not only the expense of 
it but what are our rules with regard to how that drone is 
being used.
    See, some people have interpreted this open spaces doctrine 
to mean you can fly a drone anywhere. There are a lot of open 
spaces in Kentucky and Alaska, and I think you do deserve some 
privacy even when you are out hunting, sledding, whatever you 
are doing.
    I think really we should be going to a court and saying: We 
think this person is committing a crime. Will you give us a 
warrant to look at them?
    But we should not just be flying these. The whole 
government, from top to bottom, is buying these drones. I mean 
it is outrageous.
    EPA has them. They are flying them everywhere. But if you 
think someone is a polluter and they are a farmer, go after 
them, but let's get a warrant.
    We just cannot be funding this. Plus, it just gets so 
large, and this money is not accountable. It is just flowing 
everywhere, and nobody--snow cone machines, drones.
    Long-range acoustic devices--they bought one in Pittsburgh 
for $88,000. Apparently, it can cause permanent hearing loss, 
but it is this ear-splitting noise. And it is like we have got 
to have $90,000 for an ear-splitting noise device?
    See, I just wonder how the controls are, but some of it is 
just because nobody is paying attention to the dollars spent. 
We are a trillion dollars in debt every year, and we should do 
some things.
    I mean, we had 9/11. We had this terrible thing happen, but 
we have a terrorism center--I think an anti-terrorism center in 
Somerset, Kentucky. I figure if the terrorists get to Somerset, 
Kentucky, we are probably done for, if they get that far.
    But we do these things because they are work projects and 
communities like them because they bring money instead of 
saying, where do terrorists attack us?
    It is sort of like who attacked us on September 11, 2001. 
Sixteen of the 19 were here on student visas. So we had a 
special program looking at student visas for 10 years, and we 
just de-funded that.
    So we have money for ear-splitting devices and for snow 
cone machines, but we did not have enough money to look at 
people who are on student visas.
    We, apparently, do not have enough analysts to look and see 
when you are targeted, when a foreign government, like Russia 
reports you, like the Tsarnaev brothers, to know that you are 
flying back to a part of the world where you may become 
radicalized.
    So I think we empty our pockets spending money everywhere, 
but then the things we ought to be doing we are not doing, and 
the things we ought not to be doing we are doing. But I think 
it is really because of the overall philosophy of just throwing 
money at problems.
    And I would appreciate if there had been any reforms, Mr. 
Manning, done since the zombie apocalypse and maybe on the snow 
cone machines and anything else.
    Mr. Manning. Thank you, Senator.
    Yes, we have done, as you can imagine, a very close 
analysis of all of the examples raised in the report and many 
that we hear.
    Senator Paul. If you have a response--a formal response--I 
would not mind seeing that if you can send that to our office.
    Mr. Manning. Sure. We do, and we will be happy to provide 
it to your office as well.
    There are usually, as you would imagine, answers and 
reasons for those. The ice machines were, well, intended for 
exactly that. Anybody who has been hospitalized will probably 
recall that they are often given ice chips when they are 
recovering rather than water, and the idea was to provide 
shaved ice in large quantities for a heat response.
    But, nonetheless, we have processes in place to scrutinize 
the equipment that is being purchased. But, more importantly, 
what we have in place through the grant program now and what we 
propose going forward would eliminate those kinds of 
acquisitions because we are talking about defined 
capabilities--a particular number of individuals with training 
on certain equipment that is defined as a typed resource--to be 
able to achieve and much less of the kind of more vague ``This 
is something I think might be useful, so I am just going to go 
ahead and do it'' as we might have seen in the past.
    Senator Paul. But I am not sure why we send any money to 
these cities. Why do we send money for terrorism to little, 
tiny cities around the country?
    I come from a little town. I am all for little towns, but I 
am not for sending anti-terrorism grants to any little cities.
    I mean, New York is a problem. D.C. is a problem. L.A. is 
probably a problem. But by sending them to all these little 
cities, it sort of seems to me as if somehow politicians got 
involved.
    I think there was a report a few years ago that said--I 
think this was in Indiana. There were like 9,000 requests for 
preparedness grants--the pumpkin factory, the popcorn festival, 
all of these cute little things that my family goes to in a 
small town, but they do not need terrorism grants.
    Someone should just say no.
    Mr. Manning. Well, Senator, in the case of small 
communities it is often that capability is procured by the 
State through local governments, and the idea is that you build 
response capabilities. There are prevention and interdiction of 
an attack that may occur somewhere, but you build the response 
often in the outlying areas to come in as mutual aid.
    In the case of the snow cone machines, for example, if I 
recall correctly, that was in the Detroit area. And 
Abdulmutallab--had that device not failed, that aircraft would 
have blown up over Detroit and----
    Senator Paul. And the snow cone machine was going to save 
anybody?
    Mr. Manning. The snow cone machine, as I described, 
Senator, was to build capability for their mass casualty 
response, to be able to have shaved ice available. And, of 
course, as we all know and have seen reports, it was used for 
other purposes, and we have procedures in place to prohibit 
that from happening again.
    The BearCats are another good example--the armored 
vehicles. I think we all saw the utility in the Boston area.
    And, as I described, the idea is to build statewide 
capability on the part of the State that can come together as a 
statewide response to wherever a threat may occur.
    And we do know that Zazi, the Times Square bomber, was 
building his bombs and planning in kind of remote, ex-urban 
Denver and transited most of the United States in route to New 
York.
    So our grant program going forward has what we propose as 
more constraint on capabilities developed against specific 
identified threats and hazards that we have all worked jointly 
on identifying.
    Senator Begich. Mr. Manning.
    Mr. Manning. Yes.
    Senator Begich. Can I ask you a question? Would you mind 
submitting this--and then we will end this panel here.
    The point I think Senator Paul is making is: How are these 
expenditures managed? What are really the capabilities and 
needs?
    But you are also indicating that you have a newer approach 
to how you are dealing with the grants in the future. I would 
be interested if you could do this.
    I am very visual. One thing about the Senate--we love to 
create mills of paper with a lot of writing. Can you show how 
the grant program existed before and what it looks like in the 
future in just a very simple chart style?
    In other words, here is what it used to or could be used 
for, and these are some examples, and here is what now is 
happening that will preventing that or not, depending on what 
the subject matter.
    Is that something that you could do?
    It does not need to be complicated. When I say this--I 
always like to say this because I know Federal Agencies love to 
just inundate us with paper because they figure that is how we 
will get blurry-eyed and forget.
    But I just want something very simple that says: Here is 
our current program. Here is what we are moving to.
    And that, I think, would be a very interesting point to see 
because that would help us understand how you have kind of 
plugged these problem areas that have occurred.
    Would that be within reason?
    Mr. Manning. Most definitely.
    Senator Begich. Great.
    For the two others, if I can ask you to do one thing--and 
it just dawned on me as you were talking. We probably do not do 
enough of this, and it is something I am trying to do with this 
Committee and another committee that I chair, and that is 
better oversight not just when something bad happens but--you 
know.
    Can you submit not the ones that we have right now, but 
even you had mentioned you did a report a couple years ago with 
some legislation.
    Can you submit to the Committee: Here is what we 
recommended, maybe even the last two reports, and what we have 
done?
    Ms. Richards. Absolutely.
    Senator Begich. Again, I do not need a big fancy document. 
I just need: Here is the recommendation--completed, partially 
completed, not completed. What is your analysis of why--because 
one of the things we do not do here--it just dawned on me even 
more and more after 5 years now, sitting here.
    We have great professional staff from the IG and your 
group, GAO, doing all this work. And then 3 years later since I 
have been here, 60 percent of the Senate has changed.
    So, of course, we all come in with new ideas, and we say, 
why haven't you done this?
    And you actually politely say, as you did--and it was very 
good--well, 2 years ago, we did this.
    Then all of us say, well, we never saw it because, of 
course, we were new.
    This might give us a better understanding of what we should 
be doing or not doing and, when there are recommendations, what 
is our followup to make sure that is done because, otherwise, 
we spend lots of time in committee meetings having committee 
meetings about something we talked about a year and a half ago.
    And you all or the agency folks--I know what you will do. 
No disrespect; you will leave, and you will go, we told them 
this 2 years ago.
    Well, help us do a better job in oversight.
    So, if you would not mind doing that?
    Ms. Richards. Absolutely.
    Senator Begich. And you select. I mean I would say the last 
report or last 2, whatever you feel is more relevant because if 
it is 10 years old it may be times have changed quite a bit.
    But something that just says: Here is what we recommended. 
Here is what happened.
    And then even if you can show what agency or the elected 
body--was supposed to be doing something.
    Would that be OK?
    Mr. Maurer. Absolutely.
    Senator Begich. Great.
    Thank you all very much. I appreciate your time and thank 
you for being at the panel here.
    We do have another panel. If they are ready, we will do a 
little switch-out here. [Pause.]
    Thank you very much. Thank you all very much for being here 
for our next panel. Again, I will just mention who is here, and 
then I will start.
    And I will start with you, John, but let me first introduce 
everyone that is here.
    John Madden, Director of Alaska Division of Homeland 
Security and Emergency Services; William Euille, Mayor, city of 
Alexandria--thank you very much. We love mayors. As you know, I 
was in the mayors' conference just a couple days ago. So we are 
glad that you are here.
    Next is Josh Filler, President of Filler Security 
Strategies, and Matt Mayer, Visiting Fellow from the Heritage 
Foundation.
    Thank you all very much for being here.
    John, welcome. I know you are dealing with some significant 
tragedies and disasters in Alaska. I think we have one 
literally every 2 weeks, and I think there was an analysis done 
that we always have some sort of situation in Alaska. And I 
know you have done some incredible work. So let me turn to you, 
and then we will just kind of go down the row here.

 TESTIMONY OF JOHN W. MADDEN\1\, DIRECTOR, ALASKA DIVISION OF 
  HOMELAND SECURITY AND EMERGENCY MANAGEMENT, AND PRESIDENT, 
NATIONAL EMERGENCY MANAGEMENT ASSOCIATION, AND MEMBER, NATIONAL 
                     GOVERNORS ASSOCIATION

    Mr. Madden. Well, thank you, Senator Begich and Ranking 
Member Paul for the opportunity to speak today on an 
increasingly critical and often overlooked aspect----
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Madden appears in the Appendix on 
page 71.
---------------------------------------------------------------------------
    Senator Begich. John, can I interrupt you a second. I 
forgot to say one other thing.
    Mr. Madden. Yes.
    Senator Begich. You are also now the President of the 
National Emergency Management Association (NEMA), not just from 
Alaska, but you represent the whole group. I just want to give 
you that proper introduction. Sorry, John.
    Mr. Madden. Thank you, sir.
    Before I proceed, I do extend my thanks to you, Senator, 
and your staff and Senator Murkowski and Representative Young 
for your support during the recent historic floods on the 
Yukon, particularly in Galena. I was there just 4 days ago, 
working with the community.
    We learned just in this last month that our investments in 
building capabilities did save lives, did alleviate human 
suffering and did reduce property damages.
    And I do speak today for both the National Emergency 
Management Association, of which I am the President, and the 
Governors' Homeland Security Advisory Council in the National 
Governors Association (NGA), of which I am a member.
    The question, what is the return on our investment, is not 
new and neither are the considerations from the States and our 
local partners.
    The National Preparedness Task Force, comprised of leaders 
from State, local, tribal and territorial governments, 
addressed this in their report to Congress in September 2010. 
Many of the task force recommendations focused on building a 
problem-solving system based on investments in capabilities 
made through skilled analysis and continuous assessment of 
risk.
    In January 2012, the National Emergency Management 
Association presented to Congress a proposal for a 
comprehensive grant system based on flexibility but balanced 
with accountability, where States set priorities and make 
investments in capabilities in support of their local 
governments for their risks, and measure performance and 
effectiveness of those investments.
    In June of this year, the National Governors Association 
submitted its Governors' principles for Homeland Security grant 
reform including many of the measurement needs.
    The Threat and Hazard Identification and Risk Assessment--
must be at the center of this enterprise and be the basis for 
our priorities.
    But the initial THIRA in 2012 held on to some past 
assumptions--that complex risk can be simplified and quantified 
by classifications like red, green, yellow/low, medium, high. 
It also limited the range and the variability of hazards and 
fit everything into a snapshot on the day. It did not enable 
and encourage collaboration between States that share the same 
hazards or where one may be a resource provider for the other 
through mutual aid. Most importantly, it did not recognize that 
threats and hazards and the risks from them do not stop at the 
State line, the county line or the city limits.
    We must measure and manage risk. We must invest in 
capabilities based on risk. And we must measure the 
effectiveness of our investments in drawing down those risks. 
And with each investment and with each assessment of its 
effectiveness, we must feed this back in and adjust our 
priorities.
    An effective THIRA must follow the supply lines from 
production to consumption. It must follow the watersheds and 
rivers and not just the geopolitical boundaries on the map. The 
THIRA must consider the interdependence of our systems and the 
possibility that a single investment may reduce the risk from 
several hazards.
    But we must measure far more than we do now. We must 
measure the effectiveness of our decisions, of our assumptions 
and of our actions.
    I can measure the effectiveness with great precision of a 
three-legged sled dog, but perhaps I should question the 
effectiveness of my decision based upon the ability to win the 
race.
    Consider this statement developed and supported by the 
National Governors Association and the National Emergency 
Management Association in documents provided to the Congress: 
We must build and sustain a skilled cadre across the Nation 
that is well organized, rigorously trained, vigorously 
exercised, properly equipped, prepared for all hazards, focused 
on core capabilities and resourced for both the most serious 
and the most likely threats and hazards.
    There are 13 opportunities in this statement to measure 
performance, and we need those 13 and more.
    While not endorsing the National Preparedness Grant Program 
overall, both the National Governors Association and NEMA 
believe that any grant framework should have consistent methods 
to measure or assess progress in achieving those core 
capabilities. Only through the comprehensive grant reform can 
we ensure continuous assessment of risk across all levels of 
government, encourage strategic planning rather than spending 
planning and base funding on the priority needs of the 
communities and to measure progress to fill gaps in our 
capabilities.
    This Nation is not well served when the grant system or the 
measurement system is an impediment to our national ability to 
be agile and adaptive, to swiftly confront changing hazards, 
emerging threats and increasing risks.
    And I will stand ready for any questions at the end of the 
panel.
    Thank you.
    Senator Begich. Thank you very much.
    Mayor, thank you again. As I said in the opening, I am 
biased toward mayors. You know that.
    And at the end of the day--no disrespect to my friend, 
John, sitting to your right--mayors have to deliver the end 
product, and so I really appreciate that you are here and 
represent the conference. Please.

    TESTIMONY OF THE HON. WILLIAM EUILLE,\1\ MAYOR, CITY OF 
  ALEXANDRIA, VIRGINIA, AND MEMBER, U.S. CONFERENCE OF MAYORS

    Mr. Euille. Well, thank you, Mr. Chairman and Ranking 
Member Paul.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Euille appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    Certainly, your comments are very appropriate--that mayors 
are the closest to the people and we have to deal with these 
issues on a daily basis and be responsive.
    And I appreciate the opportunity, on behalf of the U.S. 
Conference of Mayors, to testify before you on the suite of 
Homeland Security Grant Programs and how they have helped not 
only my city and the region, but also cities across the 
country, to prevent, mitigate, prepare for and respond to both 
acts of terrorism and natural disasters.
    Senator Begich, we especially appreciate the way as you 
mentioned, you were with us this past week in Las Vegas for our 
annual convention. You have continued to reach out to mayors 
and represent our interests and those of our cities in many 
different areas since your office moved from city hall to the 
Nation's capital. We know that you have not forgotten where you 
came from, and we know that we have a real friend here in the 
Senate.
    My basic message today--again, your opening comments are a 
good segue in terms of why I am here representing the mayors. 
And my basic message today is that mayors and other local 
officials across the Nation strongly support the existing menu 
of Homeland Security programs.
    As I believe my testimony will show they are working. We 
recognize that they may not be perfect and some changes may be 
needed, but they are the product of years of work by Congress, 
the Administration, State and local governments, and first 
responders. The Federal grant funds, which the Department of 
Homeland Security and its Federal Emergency Management 
Administration have provided, clearly have improved the 
Nation's planning, mitigation, preparedness, prevention, 
response and recovery capabilities.
    The April 15 bombing at the Boston Marathon provides an 
excellent example of how DHS's investments provided through the 
Urban Area Security Initiative Program have paid off. There can 
be no doubt that they contributed significantly to the Boston 
area's quick and effective response to this horrific act of 
terrorism.
    Here is one specific example. UASI funds provided the 
salaries for nine intelligence and GIS analysts and high tech 
equipment at the Boston Regional Intelligence Center. These 
assets were critical in protecting and providing information to 
the first responders in the field. The analysis monitored, 
vetted and triaged information concerning over 280 suspicious 
or criminal acts within Boston following the bombing.
    The Tucson area has used Metropolitan Medical Response 
Systems (MMRS), funding to pay for planning, equipment and 
training to help first responders, public health, private 
health, law enforcement and emergency managers across Southern 
Arizona prepare for a mass casualty event. This capability 
played a major role in the effective interdisciplinary response 
to the January 8, 2011 shooting of Representative Gabrielle 
Giffords and 19 others.
    In Alexandria, and the National Capital Region we have used 
learned lessons from various incidents to guide investment 
decisions, to increase our capabilities, to protect against 
future occurrence. For example, after the anthrax attacks in 
2001, the NCR and UASI funds were used to enhance secure and 
interoperable communications, information sharing and the 
situational awareness in the region, and produce NCRnet, a 
secure fiber optic network connecting the NCR regions, Essence, 
a public health surveillance system, and the installation of 
chemical and biological sensors in the Metro system, where I am 
also a member of the board of directors.
    As we are all aware, the fiscal year 2013-2014 budget 
submitted by the Administration proposed a major reform and 
consolidation of FEMA's Homeland Security Grant Programs, which 
would replace the current programs with the new National 
Preparedness Grant Program.
    It is no secret that the U.S. Conference of Mayors and 
other organizations which represent local governments, first 
responders and emergency managers have registered serious 
concerns with regards to this proposals to convert the current 
suite of Homeland Security Grant Programs into State-
administered block and competitive grant programs in which 
funding decisions are based on State and multi-state threat 
assessments. This proposal would no longer guarantee the 
retention of key programs, remove 25 percent set-aside for law 
enforcement terrorism prevention and expand the eligible 
applicants for the portion of the funds which must be passed 
through to local governments, and to include port and transit 
authorities and private organizations.
    We especially appreciate the fact that, thus far, Congress 
has rejected the Administration's proposed changes to the 
Homeland Security Grant Programs and agreed with us that 
changes must be considered by the authorizing committees.
    We know that you will carefully examine any proposals that 
they send to you. The U.S. Conference of Mayors and other 
organizations which represent local governments, first 
responders and emergency managers have urged FEMA and the 
Administration to work with us and Congress to develop programs 
reforms which incorporate the successful elements of past and 
current programs, that identify new approaches which can have 
broad-based support.
    Finally we suggest that any program improvements increase 
transparency, increase local involvement, provide flexibility 
with accountability, protect local funding, sustain terrorism 
prevention, provide incentives for metropolitan area 
regionalization.
    I thank you for the opportunity to testify, and I stand 
ready for any questions you may have.
    Senator Begich. Thank you very much, Mayor.
    Let me go to Mr. Filler.

 TESTIMONY OF JOSH D. FILLER,\1\ FOUNDER AND PRESIDENT, FILLER 
                   SECURITY STRATEGIES, INC.

    Mr. Filler. Thank you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Filler appears in the Appendix on 
page 88.
---------------------------------------------------------------------------
    Good morning, Chairman Begich and Ranking Member Paul.
    I am Joshua Filler, President of Filler Security 
Strategies, a homeland security consulting firm in Washington, 
DC. It is my privilege today to discuss with you, issues 
surrounding our Nation's preparedness, how to evaluate it and 
what impacts Homeland Security grants have had on preparedness 
at the local, State and national levels.
    The purpose of Homeland Security grants, such as the Urban 
Area Security Initiative and the State Homeland Security 
Program, is to supplement local and State spending to allow 
urban areas and States to build capabilities that bridge 
traditional domestic public safety, largely handled by the 
States and localities, with national security imperatives 
traditionally managed by the Federal Government. Without such 
funding, States and urban areas would not have the resources to 
develop capability levels necessary to integrate those 
missions.
    Measuring the effectiveness of specific grant programs is 
different than measuring overall preparedness. Grant 
effectiveness is about how grants specifically impact 
capabilities. However, the overall level of preparedness in an 
urban area or State is influenced by numerous other factors--
most importantly, State and local resources.
    While Homeland Security Grant Programs are critical to 
enabling urban areas and States to enhance preparedness, they 
represent a small fraction of the tens of billions of dollars 
spent by States and urban areas on public health and safety 
each year.
    To measure grant effectiveness and preparedness, States and 
urban areas must establish their own capability targets and 
performance measures and metrics based on their unique risk 
profile and planning assumptions. That risk profile should also 
determine which capabilities are a priority to address high 
risks, threats and hazards. We cannot measure everything, and 
no single part of the Nation needs to be fully prepared for 
every conceivable hazard.
    These locally developed targets, measures and metrics 
should all fit under a common framework, such as the Core 
Capabilities under the National Preparedness Goal. This will 
ensure a consistent, strategic approach while recognizing the 
differences across a country as large and diverse as the United 
States.
    With these targets, measures and metrics in hand, States 
and urban areas should engage in a regular assessment process, 
involving self-evaluations, quantitative modeling and 
performance evaluations, particularly involving exercises and 
especially real-world incidents--all in order to build a 
consistent picture of preparedness over time.
    In each case, the following steps should be addressed: 
First, identify the gaps in a State's or urban area's priority 
capabilities. Next, outline grant and other expenditures to 
close the identified capability gaps. And, based on the 
measures and metrics, identify the outcomes produced from grant 
and other expenditures in terms of closing capability gaps and 
attaining the capability target.
    Throughout such a process, the best way to determine grant 
effectiveness and overall preparedness is to review how 
capabilities performed in a real-world incident. Based on the 
need, what were the strengths; what were the gaps, when a 
jurisdiction or agency had to perform?
    In the end, we are making these investments in preparedness 
to more effectively operate when we have a threat or disaster. 
That is what matters most.
    To date, I have worked on five grant effectiveness studies 
and have developed tools to evaluate overall preparedness in 
numerous regions across the Nation. These include in the San 
Francisco Bay Area, San Diego, Hampton Roads, Riverside and 
Anaheim/Santa Ana.
    From that experience, I can say with certainty that there 
is no silver bullet or single answer to addressing the 
questions of grant effectiveness and overall preparedness.
    What I have learned is that grant effectiveness and 
preparedness cannot be measured by just looking at the United 
States as a single operating entity, which it is not. Rather, 
the United States is a vast network of independent actors--
towns, villages, cities, counties, States, the private sector 
and Federal Departments and Agencies--that must unify to 
achieve homeland security priorities and perform critical 
operational tasks before, during and after an incident.
    When attempting to answer how effective a grant program is, 
or how prepared a region or the Nation as a whole may be, we 
must take a varied approach that addresses the question through 
multiple lenses. These lenses should include a look from the 
local perspective, the State perspective and the national 
perspective as well as others. Taken together, each lens will 
help provide a more complete understanding as to grant 
effectiveness and overall preparedness across the Nation.
    Thank you.
    Senator Begich. Thank you very much. Mr. Mayer.

   TESTIMONY OF MATT A. MAYER,\1\ VISITING FELLOW, HERITAGE 
                           FOUNDATION

    Mr. Mayer. Chairman and Ranking Member, thank you for 
having me this morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Mayer appears in the Appendix on 
page 96.
---------------------------------------------------------------------------
    Now the question we are trying to address here is: Are we 
prepared?
    And we have to ask the followup question: Are we prepared 
for what?
    In over 10 years and $40 billion plus of spending, the fact 
that we do not know what we have, where we have it and at what 
level it exists is problematic.
    I do not envy Mr. Manning or any of the folks at FEMA. 
Having sat in those chairs, along with Mr. Filler, is not a 
place that you want to sit as you try to struggle through these 
very difficult issues after September 11, 2001. But we have to 
do so because we are entrusted with the public's money and we 
have an obligation to do so in the most effective and efficient 
manner we can.
    I will say congratulations to the department and FEMA for 
pushing for a reduction in the number of Urban Area Security 
Initiative cities. It had ballooned to over 60 cities--a 
ridiculous number--and now has come down to 31, to 25. That is 
a great investment so we do not squander resources trying to 
put a thin layer of peanut butter on a piece of bread that is 
very big.
    I also think the idea to consolidate the programs is a very 
good idea. It is not a new idea. We tried that during the Bush 
Administration several times, and special interests and other 
groups said no. But I think we have to be looking at 
consolidating so we can target funds where the risk is the 
greatest based upon that current risk model that the 
intelligence is driving there.
    One of the mistakes I think we make is we assume that the 
risk is everywhere, and if we do so, that means protecting 
America from that risk is incredibly hard.
    There is risk everywhere, but we do not live in a nanny 
State. We cannot make it a 100 percent safe place to live. If 
we do so, we sacrifice our civil rights and civil liberties in 
the process.
    So we have to be smarter about saying, where is the risk 
and where is a meaningful level of risk where finite funds, 
finite resources, finite time and people can be applied, so 
that we can raise our preparedness to the highest degree 
possible in order for us to prevent an attack and if we are hit 
to respond effectively.
    Boston is a great example. It shows over the years we have 
spent a whole lot of money on the response side and can respond 
fairly effectively, whether it is a tornado or it is the Boston 
attack.
    Our problem still remains in preventing those attacks. And 
Boston was a preventable attack that we missed on opportunities 
because we failed to learn some of the lessons over the last 
decade that we should have learned.
    And so, when we think about it, one of the things we do--
and, Chairman, you noted this in the turnover in the Senate. I 
would say the turnover in the department is just as high or 
higher, and as a result, you see enormous amounts of churn on 
doctrine.
    This is not the first National Preparedness Goal. I think 
it might be the fourth iteration of it.
    It is not the first Core Capabilities. It may be the third 
or fourth iteration of those capabilities first announced in 
September 2004.
    So this process has been an ongoing process where enormous 
amounts of churn have resulted, federally, in a lot of inaction 
and ineffectiveness.
    But at the State and local levels, what that creates is an 
enormous problem. They do not have the resources to deal with 
this constant churn of policy, and all they do then is try to 
chase the next iteration. Do the mill burning, as you spoke of. 
And, as a result, we are just constantly shifting to kind of 
what is the next shiny object that we are trying to get money 
for.
    We need to settle one policy so that States and locals can 
start building toward this idea of capabilities--what are they? 
What do we need? How high do we need them? And let's then 
figure out what the gap is that remains to be funded, which we 
often do not do enough.
    Another problem that we have not addressed is the 
subjectivity of the measurement process, whether we measure 
effectiveness, which is an incredibly subjective measurement. 
You and I may see something completely different in terms of 
whether it is effective or not, and that subjectivity is a 
problem.
    So we need to put more rigor and objectivity into the 
evaluation process so that we know when you and I both say that 
capability is working, it has common language; it has common 
understanding.
    And, between jurisdictions, what I say is an effective 
urban search and rescue squad is what you say is so that when I 
call for yours under mutual aid it does not fail because it 
cannot do what I thought you said it could do.
    So we need to make sure that there is commonality across 
the spectrum in order for us to do that.
    Again, self-evaluations are problematic. I think you see in 
my testimony that I submitted for the hearing the 2012 
assessments and the 2013 assessments, and we have lost ground 
enormously somehow in a year even though we gave more money 
out.
    I know FEMA will say they are measuring different things, 
but that actually demonstrates the problem of how we measure 
things.
    So we need to move further down the line of being smarter 
about what we measure, how we measure it and where we put the 
money.
    I would suggest that the high risk urban areas are the 
place we need to focus our funding. After 10 years and more 
than $40 billion, if we have not secured Small Town, Ohio, 
which is where I am from, it is time to let Small Town, Ohio 
take care of itself. We need to focus our Federal funds in the 
big places where we know there is risk of a terrorist attack.
    With that, I will end my testimony and be happy to take any 
questions you might have.
    Thank you for having me today.
    Senator Begich. Thank you all very much for being here.
    And let me start, John, if I can, with you. It sounded from 
your testimony, as you look at the Federal land--and I think of 
the phrase of spending plan versus strategic plan. I think you 
said strategic--that is the better approach. I think everyone 
on the panel probably would agree with that.
    Do you think FEMA is moving in the direction that makes 
that really the focus? I will use what Mr. Mayer just said at 
the end.
    I agree. I just quickly looked at the 2012 versus 2013. 
When you look at the numbers, you get terrified that we have 
gone the wrong direction. But then you hear the arguments from 
FEMA that, well, we are measuring things differently, which 
then means mayors and State folks have to churn paper to 
respond to that.
    And, yet, what are measuring, are we doing it right, and 
what is the answer in this?
    I am going to ask the same question to you, Mayor.
    Are States trying to get FEMA to be on one set of 
parameters at some point, or is it just that FEMA is directing 
and you all are just trying to chase it and make sure that you 
fill the paperwork out so we get the resources that we think we 
need on the ground?
    Does that question make sense?
    Mr. Madden. Yes, sir, and it is constantly a chase between 
intent and execution.
    In the heyday of all the funding--and there used to be 
several--many times more of what it is now, annually. It was 
all about spending. If I give you this money, can you spend it?
    Senator Begich. Mm-hmm----
    Mr. Madden [continuing]. Ask the question, how you can 
spend it?
    Senator Begich. Mm-hmm.
    Mr. Madden. And the performance measurement was I said I 
need three things, and I bought three things; therefore, I am 
successful.
    Senator Begich. Mm-hmm.
    Mr. Madden. There has been movement away from that, but we 
have not fully abandoned it.
    Senator Begich. Abandoned the spending concept.
    Mr. Madden. The spending concept.
    Senator Begich. Right. Is that because of just entrenched--
I mean, these two were there many years ago. So, I mean, is it 
just that change is difficult to adapt to in the way this 
program should operate?
    Mr. Madden. We live in a time that cries out for 
innovation, but unfortunately, we have to create the innovation 
within a bureaucracy.
    Senator Begich. Bigger----
    Mr. Madden. And bureaucracies do not change rapidly. So 
they need to measure something, so they will measure the 
comfortable things before they will measure the difficult 
things.
    And the real challenge that comes in under the National 
Preparedness System is trying to integrate it across. If you 
are thoughtful in this and say that this element is very 
critical for a recovery of a community that would be hit by any 
disaster, are we taking that knowledge and priority and putting 
it over into then let's make that an emphasis for mitigation; 
let's make that an emphasis for protection?
    We do not have that cross. Therefore, we are still 
emphasizing on execution.
    And the strategic value of all these is to emphasize the 
thinking, the planning, the setting of priorities that then 
yield the spending.
    Senator Begich. Mm-hmm.
    Mr. Madden. We need to start at the beginning of this 
thoughtful process rather than at the end.
    Senator Begich. Mayor, what is your thought on that?
    Then I am going to ask both of you if you agree with that 
kind of analysis. Mayor.
    Mr. Euille. Well, thank you, sir.
    While I am not directly involved on a daily basis in terms 
of overseeing emergency preparedness, we have professional paid 
staff that does that very well.
    Senator Begich. Right.
    Mr. Euille. But I will certainly agree with John's 
comments.
    But I think really what we are looking for here is, first, 
a comfort level that works for all--the localities, the States 
and the Federal Government. We are also committing to making 
certain that we are effective and efficient in terms of what we 
do and how we do it.
    But, this talk about small towns versus large towns and not 
having the need to have the same type of equipment, or adequate 
equipment, and services that other cities and towns have--that 
makes sense in terms of----
    Senator Begich. Of risk analysis.
    Mr. Euille. Yes, risk analysis, in terms of concern.
    But the reality of it all is--take my city of Alexandria, 
Virginia. We are caught in the middle of being right next to 
the Nation's capital. We are the small pea in a pot, but yet, 
we have just as much of a major commitment to helping to secure 
and protect the region----
    Senator Begich. Right.
    Mr. Euille [continuing]. In terms of our mutual aid, 
whether it is equipment, manpower or what have you. So we need 
to also have the resources to be able to be responsive.
    Senator Begich. A good example might be--and I will use 
Alaska as an example, and then I am going to turn to Mr. Mayer 
and Mr. Filler for kind of additional comments.
    Galena is not a terrorist location, but there is a flood 
disaster. So you have different risk levels on different 
levels. We know a natural disaster could occur there much more 
rapidly than a terrorist activity.
    Then we go into Valdez, Alaska, where we have a small town, 
but we have the oil terminus for the pipeline. Higher risk but 
also on multiple fronts, wouldn't you say, John?
    I mean especially last week when it was 90 degrees there. I 
am sure they love it, but also the fire risk now has increased 
dramatically. But it also has oil terminals that have a huge 
risk factor.
    So it has kind of multi-layered tasks. Is that a fair 
statement, John?
    Mr. Madden. Yes, sir, it is, and that illustrates the need 
for that interdependence.
    Senator Begich. Mm-hmm.
    Mr. Madden. Alaskan oil is an economic driver for the 
entire West Coast----
    Senator Begich. Right.
    Mr. Madden [continuing]. That enables them to have the 
economy to ship things back to Alaska.
    Senator Begich. Right.
    Mr. Madden. The vulnerability for the State of Alaska 
exists outside of our State as much as it does inside.
    Senator Begich. The State, right.
    Mr. Madden. And that is the part where any assessment of 
risk has to recognize that the vulnerability for a city or a 
county or a State often resides outside of its borders and that 
every city, county and State protects things that are of value 
to others. We protect a strategic national oil supply. Others 
protect food supplies.
    Senator Begich. Mm-hmm.
    Mr. Madden. There are pipelines that run from Louisiana to 
New England through many States.
    Senator Begich. Right.
    Mr. Madden. And each State is viewed differently for how 
they are assigned a risk.
    Senator Begich. Mm-hmm.
    Mr. Madden. And, to go on what you said earlier, there are 
34 States that have received the identical Homeland Security 
grant funds last year and this year, and that just cries out--
--
    Senator Begich. Right.
    Mr. Madden [continuing]. For it is not based on risk if 34 
States get the identical amount.
    Senator Begich. And I think, Mayor, you would probably 
agree with that in a broad sense, not the specifics, but that 
last statement. I could sit here in my own limited knowledge 
and say certain States have a higher risk than other States, 
but 34 all the same seems odd.
    But maybe----
    Mr. Euille. Absolutely. I remember last year, maybe 2 years 
ago, when we got word in terms of the Washington Metropolitan 
Area about the grant funding that we were receiving, we all 
said, well, this is ridiculous.
    I mean, we should almost be equal to what New York City is 
receiving, but yet the Washington Metropolitan Area suffered a 
tremendous reduction.
    So I do not think that should be based on just allocations 
across the board. It should be, again, based on risk.
    Senator Begich. Risk.
    Either one of you want to respond on that analysis?
    And you have unique experiences, both of you, because you 
have worked inside this system--and I am correct on that, 
right--at different times. So you kind of saw the beginning of 
these grants as well as now you are on the outside, looking in.
    So I think it is a unique experience you bring here to the 
Committee.
    Either one? Mr. Filler or Mr. Mayer.
    OK.
    Mr. Filler. Yes, it has been a unique experience having to 
live with the consequences of some of your decisions from the 
outside. It definitely gives you a unique perspective.
    On the risk side, I think what has been happening here is 
that the risk analysis that is being used is pushing more and 
more of the funding to the top which, by default, leaves so 
little funding for what is left, that everybody gets the same 
amount.
    Senator Begich. So the bulk of the money goes here. There 
is a little bit left. So just spread it.
    Mr. Filler. Just spread it because the real risk analysis 
is taking place at the very top of the urban area list or the 
State list, depending on which list you are actually looking 
at.
    So, when you do that, you only have a certain amount of 
money left. If there are statutory minimums, you have to meet 
those statutory minimums, and that basically----
    Senator Begich. You have kind of got two pressures going 
on--the minimums and then the high risk--and then what is left 
is----
    Mr. Filler. Exactly.
    So, when those two forces come together, it produces the 
result where 30 or some odd States may get the same amount of 
money even though there is no way those States have the same 
amount of risk. There just is not enough money to differentiate 
those risk levels when you are putting so much money at the 
top. I think that is probably what is happening.
    Senator Begich. Mr. Mayer.
    Mr. Mayer. Yes, there are a couple responses to some of the 
issues that you raise.
    One of the challenges we have, right, is that we have a 
dual sovereignty system, that States are sovereign entities, as 
are local governments, and so this tension between the Federal 
Government telling States what they need to do or not do and 
States wanting to have some control over that. After all, it is 
the States' money that comes to Washington, coming back to 
them.
    So that tension is always there, and it is a challenge, I 
think, to try to navigate that for any issue, including 
homeland security.
    On the risk issue, it was interesting. When Mr. Filler and 
I were there, in preparing for the 2006 allocations, we thought 
we would try to get creative with the risk formula and add 
natural disaster risk to the formula to see how it would impact 
things as we were going through the analysis.
    And what we discovered is if you put natural disaster risk 
into the risk formula it overwhelmed terrorism risk because the 
risk of fires, floods, tornadoes----
    Senator Begich. Huge.
    Mr. Mayer. It is huge.
    Senator Begich. Huge and more frequent.
    Mr. Mayer. More frequent.
    So, again, that gets into that tension between what are we 
preparing for. Are we preparing for the natural disasters, or 
are we preparing for terrorism? And that, I think, helps us 
define and target where we need to go.
    And on that risk, I think it was the 2007 to 2008 year on 
the Urban Area Security Initiative program, where they added 4 
cities, and literally, every city got cut by 3 percent exactly, 
from top to bottom. It did not matter.
    And, again, that----
    Senator Begich. In order to take care of the four.
    Mr. Mayer. Yes. And that goes to the question of, how in 
the world, mathematically--and I am not that smart. So I cannot 
do this. But what is the algorithm that gets you the exact same 
outcome--a 3 percent cut for every city, from top to bottom?
    It was basically to try to feed more mouths, and so they 
had to essentially rob from Peter to pay Paul.
    Senator Begich. Right, with an amount that was shrinking 
overall.
    Mr. Mayer. Correct.
    Senator Begich. So it created even another problem.
    Mr. Mayer. That is exactly right.
    Senator Begich. Do you think--and let me ask again to 
whoever wants to answer this.
    We have these grants. It is about preparedness. We have two 
kind of major areas--terrorism and natural disasters. I think 
you defined it.
    I think that is a fair national security, and terrorism, 
kind of this category, and then natural disasters.
    I had a panel here about a month ago, and we had some 
folks--a gentleman from the insurance industry. And their risk 
analysis on natural disasters is being incorporated much 
greater than they have ever had to do--the size and the 
frequency.
    Do you think FEMA is understanding that there--or Homeland 
Security/FEMA is understanding--that there is an ever growing 
now on the natural disaster end, that is bigger?
    The price tags are bigger and the frequencies are more 
often than maybe what the model or the thought was back a 
decade ago, because terrorism was kind of the driver. We had 
some natural disasters, but they were--I do not want to say 
they were infrequent, but they were not like they are today, or 
what we classify as natural disasters.
    No one would have anticipated what happened in Hurricane 
Sandy, for example, 10 years ago. They would have never had 
that on kind of the risk analysis plan. Now they do, due to the 
frequency and intensity of some of these disasters.
    Do you think the model has to be updated because you made 
me think about it when you said the natural disaster issues 
overwhelm the system when you calculate that in, which is going 
to be even bigger in the future, it seems to me.
    Any thought on that?
    Mr. Mayer. Yes. I mean, I have written extensively at 
Heritage on this issue of kind of the growth of the 
declarations coming out of FEMA for natural disasters. And we 
have taken the position that the vast majority of those are not 
being issued because they are creating--they are greater 
catastrophic events. Hurricane Sandy, obviously, is an 
exception to that.
    But what you have is because we have not moved the number 
that gets you qualified for the declaration in a long time, 
average, routine fires, floods, tornadoes, severe storms are 
starting to qualify. And, as a result, lots of money is being 
poured into that.
    Our position is we actually need to decentralize that and 
get that back as the primary responsibility of mayors and 
Governors that they need to fund and prepare for rather than 
have Federal funds and FEMA's time, frankly, being used for 
that smaller-scale, routine issues just because, well, there 
are more people living in certain places and those places have 
routine issues, whether they be a tornado in the Oklahoma alley 
or a flood in the Toledo area----
    Senator Begich. Right.
    Mr. Mayer [continuing]. Or for you and the issues you deal 
with.
    Senator Begich. Like Alaska.
    Mr. Mayer. Exactly.
    Senator Begich. Very good.
    John or Mayor, any----
    Mr. Madden. Well, sir, I am one of the 22 States--Alaska 
is--where the responsibility for homeland security and 
emergency management are combined into a single division.
    Senator Begich. Right.
    Mr. Madden. So I get to look at this in a little different 
way.
    And that is why the integration of our efforts needs to be 
the objective.
    There are very similar consequences to terrorist acts as 
there are to natural disasters. There is disruption of central 
services and disruption to the population. There is suffering. 
There are injuries. And that is why if we build capabilities 
that well serve the Nation for natural disasters, for the 
consequences, it well serves the Nation against the terrorists, 
but we need to take different preventive and protective and 
mitigative measures in those.
    But we have some universal risks, almost transcendent 
risks, that we need to have at the foundation.
    Senator Begich. No matter what those subject matters----
    Mr. Madden. No matter what.
    Senator Begich [continuing]. We always have a base.
    Mr. Madden. Because cyber attack can happen anywhere. It 
can be Portland, Oregon or Portland, Maine.
    At any time. Any community. Any industry.
    Chemical, Biological, Radiological, Nuclear or Explosive 
can happen at any place within the Nation.
    Mass casualty from many forms--it could be a terrorist 
attack, or it could be an airplane crash or a collapsed 
building.
    There are some of these capabilities that we can increase 
that well serve across a range of those hazards.
    The separation between terrorism and natural disasters--not 
only is it artificial when it comes to consequences. It 
actually invites the extreme measures, or--what Senator Paul 
brought out--it invites the spending of money to accomplish the 
spending of money.
    If we bring this back in and recognize that terrorism is 
not a logical, rational, predictable element, but it is a non-
zero every place in the Nation--Oklahoma City in 1995 was not a 
rational terrorist attack. It was symbolic. And that can happen 
anywhere.
    But Oklahoma City also has tornadoes.
    The same skills they use for the one can be used for the 
other--command structure, communications, mass casualty.
    Senator Begich. Debris cleanup.
    Mr. Madden. Debris. All those things are capabilities that 
well serve the entire range of those hazards.
    And that is where the separation--not only is it 
artificial, but it is a detriment to the strategic thought of: 
How do we develop the capabilities, for what purpose, and how 
do we integrate that between cities, between States?
    Senator Begich. Mayor, do you have any comment?
    I mean, it is interesting.
    Mr. Euille. Just very briefly, and we had this discussion 
at the mayors' conference just recently in Las Vegas.
    In terms of, again, being responsive, it is all about 
flexibility and the fact that for most cities and towns and 
States across the Nation we do have all of this under one 
umbrella. You do not have a separate office on homeland 
security and a separate office on emergency management--it is 
one umbrella.
    Senator Begich. All one place.
    Mr. Euille. Yes. They work as a team together and 
everything else.
    And in terms of natural--at least in terms of homeland 
security, rather, the eye is always on the prize. We are always 
focused and looking and making certain that our communities and 
our cities and towns are safe from terrorism and everything 
else.
    But I just had on my monthly TV show a campaign--See 
Something, Say Something--not so much on--well, it focused on 
the terrorism elements of it, but in terms of natural disaster 
you cannot see something and say something relative to a 
natural disaster because you do not know when it is going to 
occur. And it will happen, and then you have to be ready to 
respond.
    So, for all the comments and the expressions by Mr. Madden 
here, I certainly support and believe that we need to keep the 
two intertwined, again, but I think it is flexibility that is 
the key here.
    Senator Begich. Is the key.
    Any last comments, and again, Mr. Filler, did you have any 
comment you want to make before I close out?
    Mr. Filler. I would just add that from the earliest days 
the department has embraced the concept of dual use, which is 
basically if you acquire a capability you can use it for either 
a natural hazard or a terrorist event.
    Senator Begich. Right.
    Mr. Filler. Obviously, there is a difference in prevention.
    And I think States and urban areas around the country have 
embraced that--that this split between terrorism and natural 
hazards, when you get to the ground level, really does not 
exist.
    Senator Begich. Right.
    Mr. Filler. Obviously, on the prevention side and the 
intelligence side, but for all other practical purposes it is 
really an academic issue and one that I think most of the 
community has worked through and understands.
    Now, if you change how you allocate funding based on 
terrorism risk or natural hazards risk, that will have a 
change. Obviously, New York is a greater terrorism risk than it 
is from an earthquake or even a hurricane despite Hurricane 
Sandy.
    Senator Begich. Right.
    Mr. Filler. But, for purposes of once the money goes out 
and is used, dual use has been embraced for almost 10 years.
    Senator Begich. Very good.
    Let me say to all of you; thank you very much for being 
here. The first panel, second panel--you guys are kind of on 
the ground, dealing with it.
    Again, your two unique experiences have been in the system 
and now outside the system. Like you said, sometimes you 
wonder, do I really want that regulation, and now I have to 
deal with it?
    You get what you sow, right?
    But it is helpful. I mean, I think we have--it is clear to 
me more and more as we look at this issue of FEMA. How do we 
create some consistency?
    How we do not just do the churn and burn on the material or 
do as--the thing that bothered me the most was kind of the 
spending plan approach versus what is strategically necessary 
and where those gaps are, you fill them. I think a couple of 
you talked about that and how we do that.
    A piece of what the mayor brought up--and I think in 
Alaska--we are kind of unique because we have this unique 
relationship with our cities and our State. But I can tell you 
in other cities and other States it is not as clean-cut as it 
should be.
    John, you are an exception. I will tell you that, to be 
frank, with all the mayors that I know around the country.
    And we have to figure this out--how to make sure that 
cities who are always going to be, no matter how much you 
strategize, will be the first person on the ground.
    It may be a terrorist act as we saw in Boston or a natural 
disaster in Galena. It is the first. It is that body that is 
right there who may be a volunteer firefighter, a firefighter, 
police officer, EMT, or nurse, whoever it might be. And then 
right next door to them will be the State system and then the 
Federal system.
    And if we are going to be responsive, not only in a 
preventive--or in a response mode but also in the preventive 
mode, which is also the hardest to measure but probably one of 
the most important. We can do certain things, but there are 
these risk factors.
    It is going to be interesting to see over the next period 
of time as we see some recommendations on how we analyze this 
money and use it for risk factor strategic planning versus, 
well, we have a certain amount; spend it; we hope you do well 
with it because that is not the kind of money we have available 
anymore and we have to be much smarter about it.
    So your ideas and your testimony, as well as your written 
testimony--I want to say on behalf of the Committee, thank you 
very much for being here.
    Let me just check one thing. [Pause.]
    The record will be kept open for 15 days for additional 
questions or comments from Members of the Committee. We may 
submit some written questions for you. We would be anxious for 
your response.
    But, again, thank you all very much for being here.
    This Committee is now adjourned.
    [Whereupon, at 11:54 a.m., the Subcommittee was adjourned.]







                            A P P E N D I X

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
